EMBLEM® MASTERCARD®
CREDIT CARD PROGRAM

IMPORTANT INFORMATION:
 CONSUMER IDENTIFICATION PROGRAM
NOTICE (Important Information About Procedures for
Opening a New Account)

 BANK CREDIT CARD AGREEMENT
 SUMMARY OF TERMS
 AGREEMENT TO ARBITRATE CLAIMS
(Including the Right to Reject Arbitration at
Account Opening)

 STATE NOTICES
 BILLING RIGHTS NOTICE

CUSTOMER IDENTIFICATION
PROGRAM
IMPORTANT INFORMATION ABOUT PROCEDURES FOR
OPENING A NEW ACCOUNT
To help the government fight the funding of terrorism and money
laundering activities, Federal law requires all financial institutions
to obtain, verify, and record information that identifies each
person who opens an account. What this means for you: When
you open an account, we will ask for your name, street address,
mailing address, date of birth, and other information that will allow
us to identify you. We may also ask to see your driver’s license
or other identifying documents.

SUMMARY OF TERMS
Interest Rates and Interest Charges
BANK CREDIT CARD AGREEMENT
(NY Residents: RETAIL INSTALMENT CREDIT
AGREEMENT)
Nonnegotiable Consumer Note
This Bank Credit Card Agreement (“Agreement“) controls the use
of your EMBLEM® MasterCard® bank credit card account
(“Account”). Read it and keep it for your reference. Except as
otherwise provided in this Agreement and subject to applicable
law, this Agreement may be changed at any time beginning
twelve (12) months after Account opening in accordance with the
Change of Terms paragraph in the OUR RIGHTS AND HOW
THEY AFFECT YOU section of this Agreement. This Agreement
also includes an Agreement to Arbitrate with a right to reject
arbitration. See “ARBITRATION PROVISION (AGREEMENT TO
ARBITRATE CLAIMS)” below. Covered Military Borrowers: If
you are a “covered borrower,” as defined under the Military
Lending Act, 10 U.S.C. § 987, as amended, (i) the
“ARBITRATION PROVISION (AGREEMENT TO ARBITRATION
CLAIMS” provision, (ii) any waiver of right to legal recourse under
any state or federal law and (iii) any other provision in this
Agreement that is not enforceable against you under the Military
Lending Act does not apply to you. In this Agreement, the words
“you,” “your,” and “Cardholder” refer to all persons who were
expressly approved by us to use the Account. The words “we,”
“us,” and “our” refer to The Bank of Missouri, our successors and
assigns. The words “Card” or “Cards” refer to the credit card
that we issue to you. The word “Account” means an individual or
joint credit card account. The use of your Account number to
obtain credit will be considered a use of the Card. The following
items are now incorporated into this Agreement and made a part
of this Agreement:
(1) Any application, acceptance certificate or other written
document (including an electronic record) that you originally
signed or submitted in any way for this Account (your
“Application”);
(2) The Card and card carrier that we send with your Card; and
(3) Your signature (including any electronic or digital signature)
on any Application, sales slip or other evidence of indebtedness
on your Account.

Annual
Percentage
Rate (APR)
for
Purchases

19.99%

APR for
Special
Balance
Transfer

0%*

APR for
Cash
Advances
and other
Balance
Transfers

21.99%

Penalty
APR and
When it
Applies

24.99%

Paying
Interest

Minimum
Interest
Charge
For Credit
Card Tips
from the
Consumer
Financial
Protection
Bureau

This APR may be applied to your account if you
do not pay the required minimum payment by
its due date for two consecutive billing cycles.
How long will the Penalty APR apply?: If
your APRs are increased for the reason stated
above, the Penalty APR will apply until you
make six consecutive minimum payments
when due.
Your due date is at least 25 days after the
close of each billing cycle. We will not charge
you any interest on purchases if you pay your
entire balance by the due date each month. We
will begin charging interest on cash advances
and balance transfers (other than a Special
Balance Transfer, which is not subject to interest)
on the transaction date.
If you are charged interest, the charge will not
be less than $2.50.
To learn more about factors to consider
when applying for or using a credit card,
visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore/

Fees
Annual Fee

None (Initial 1 year from card issuance
date)
$25 (After 1 year from card issuance
date)

Transaction
Fees
 Balance
Transfer
 Cash
Advance
 Foreign
Transaction
Penalty Fees
 Late
Payments
 Returned
Payment

None
Up to 5% of the amount of each
cash advance (maximum fee; $50);
1% of each foreign transaction in
U.S. dollars
Up to $25 (varies by state; see below)
Up to $25 (varies by state; see below)

Billing Rights: Information on your rights to dispute transactions
and how to exercise those rights is provided at the end of this
document.
How We Will Calculate Your Balance: We use a method called
“average daily balance (including new purchases).” See Details
below.
*No Interest Charge (including any Penalty APR) or per
transaction Cash Advance Fee will apply to any remaining
Program Balance (“Special Balance Transfer,” if any) that is
transferred to an EMBLEM® MasterCard® credit card account
(for the life of the balance). Any other balance transfer will be
treated as a Cash Advance under this Bank Credit Card
Agreement.
** No annual fee will be applied (at any time) if a Program
Balance remains.
Periodic Rates with Corresponding APRs

Purchase
Periodic
Rate

Cash
Advance
Periodic
Rate

Special
Balance
Transfer
Periodic
Rate*

Penalty
Periodic
Rate

1.6658%
(corresponding APR of
19.99%)

1.8325%
(corresponding APR of
21.99%)

0.00%
(corresponding APR of
0.00%)

2.0825%
(corresponding APR of
24.99%)

Penalty Rate: If we do not receive your required minimum
payment within 60 days of its due date, your Purchase and Cash
Advance rates (but not your Special Balance Transfer rate) may
increase to the Penalty Rate. The Penalty APR will cease t o

M-123534

apply if we receive six consecutive minimum monthly payments
on or before their respective payment due dates beginning
with the first payment due date following the effective date of the
increase.
Military Lending Act: Federal law provides important
protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the Armed
Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as
applicable to the credit transaction or account: The costs
associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation
fee charged (other than certain participation fees for a credit
card account). To hear disclosures related to the Military
Lending Act, please call this toll-free number: 877-345-0151
Effective Date of This Agreement: This Agreement begins on
the earlier of (i) the date that your request for a Card and
Account is approved by us or (ii) the first date that we extend
credit to you on your Account, as evidenced by a signed sales
slip or memorandum, a cash advance or balance transfer
transaction, or otherwise (in NY, the first date that you sign a
sales slip or memorandum).
Signature; Acceptance of This Agreement: You agree that
any action taken by you in activating your Card, making a
payment on your Account or initiating any transaction on
your Account will constitute your signature on this Agreement.
Your Credit Limit: You agree not to use your Account in any
way that would cause you to go over the maximum amount of
credit available to you at the moment you initiate a transaction
on your Account (your “Credit Limit”). We may refuse to
authorize or accept any transaction on your Account that would
cause you to exceed your Credit Limit. We may temporarily
agree to allow you to exceed your Credit Limit; however, in that
case you must repay the excess amount immediately.
We reserve the right to change (to set, increase, decrease
or remove) the Credit Limit for your Account and/or for specific
types of Account balances from time to time. Such changes may
occur without prior written notice to you and may be based upon
factors including, but not limited to, anti-fraud policies and
procedures, your record of making timely payments and
staying within the established Credit Limit on your account with
us, your credit score and information contained in your credit
report.
Your Credit Limit can be found on your latest periodic statement
or provided upon request. You may not request an increase
in your Credit Limit, but you may at any time request a decrease
in your Credit Limit.
Using Your Card or Account: You can use your Card to
purchase or lease goods or services (including mail,
telephone
and
electronic
orders)
from
participating
establishments (“Purchase”). You also can use your Card to
obtain a cash loan (“Cash Advance”) by presenting your Card to
any institution that accepts the Card for that purpose or by
making a withdrawal of cash at an ATM. Transactions made
with your Account for things like money orders, deposits, wire
transfer money orders, travelers cheques, foreign currency and
other similar transactions, will be treated as Cash Advances.

They are sometimes called “quasi- cash” transactions.
You may use the Account only for personal, family, or household
purposes. You may not use your Card or your Account for any
illegal transaction or any gambling transaction. We will decline
identifiable gambling transactions.
We may refuse to authorize or accept any transaction on your
Account if your Account is delinquent.
Promise to Pay: You promise to pay us for all transactions, plus
Interest, fees and other charges due, on your Account. You
promise to make all payments in U.S. dollars and that all checks
or other items submitted in payment will be drawn on U.S.
financial institutions.
Monthly Statements: We will send you a statement under the
following circumstances:
(1) At the end of each monthly period of approximately 30 days
(“Billing Cycle”) if there is a debit or credit balance on your
Account of $1 or more;
(2) If we assessed a Finance Charge on a balance in your
Account; or
(3) As otherwise required by applicable law.
Minimum Payment: The minimum required payment on your
Account for each Billing Cycle (“Minimum Payment”) is the sum of
(i) the greater of (a) one percent (1%) of your total outstanding
Account balance on the Billing Cycle Closing Date (your “New
Balance”) or (b) $15; plus (ii) any current billed periodic Interest
charges; plus (iii) any Late Payment Fee billed to your Account in
the current Billing Cycle; plus (iv) the greater of (a) any past due
amount or (b) any amount by which your New Balance exceeds
your Credit Limit.
If your New Balance is less than your Minimum Payment, your
New Balance is due in full.
You may pay any or all of the amounts you owe at any time
without penalty. You must pay at least the Minimum Payment
within 25 days of the Closing Date of the Billing Cycle (shown as
the “Payment Due Date” on your statement).
(4) Application of Payments: We will apply payments to your
Account in accordance with applicable law. If you make a
payment in excess of the required minimum payment, we must
apply the excess amount first to your balance with the highest
annual percentage rate.
Payments are posted to your Account upon receipt; however, we
reserve the right not to increase your available credit by the
amount of any payment received for a period of four (4) business
days from the date of receipt to provide for processing and/or
verification. To speed this payment process, we make a
convenient expedited pay-by-phone service available to our
customers. A small fee may be charged when you use this
optional payment method.
HOW FINANCE CHARGES ARE DETERMINED
Your finance charge will include the following, as applicable: (i) a
per transaction finance charge (Cash Advance Fee) as shown in
the Summary of Terms above for each Cash Advance posted
during a Billing Cycle and (ii) your periodic Interest charge. We
compute periodic Interest charges applying the
applicable
Monthly Periodic Rate to (a) your Average Daily Balance of Cash
Advances, (b) your Average Daily Balance of Purchases and
(c) the respective average daily balances for any other types of
balances that are subject to different APRs. Again, any
remaining Program Balance (Special Balance Transfer) that is

transferred to your EMBLEM® MasterCard ® credit card account
will not accrue any finance charge (including any Penalty APR or
Cash Advance Fee) for the life of the balance.
Calculating the Balance Subject to Interest: We calculate the
balance subject to Interest using the “Average Daily Balance
(including new transactions)” method (“ADB”). We calculate the
ADB separately for each type of balance. To get each ADB, we
take the beginning balance of your Account each day for each
type of balance, including accrued but unpaid Interest charges
attributable to such balance, add any new transactions as of the
date of transaction, including any applicable Cash Advance Fees
as of the date each Cash Advance posts with us, and subtract the
applicable portion of any payments and credits as of the date
those post with us. This gives us the daily balance for each type
of balance. Then we add together the daily balances for the
Billing Cycle for each type of balance and divide the total by the
number of days in the Billing Cycle. This gives us the ADB for
each type of balance. Annual Percentage Rate (APR) and
Monthly Periodic Rate: The applicable Monthly Periodic Rate is
equal to 1/12 of the corresponding APR. The Monthly Periodic
Rate (and corresponding APR) for each type of balance is shown
above.
When Interest Charges Begin to Accrue: Subject to any grace
period, periodic Interest charges on Purchases will be imposed at
the applicable Monthly Periodic Rate from the date each
Purchase is made and will continue to accrue on unpaid balances
as long as they remain unpaid. You will have a 25-day grace
period to repay your new balance before an Interest charge on
Purchases will be imposed if your Previous Balance is (i) zero,
(ii) a credit balance, or (iii) paid in full by the “Payment Due Date”
shown on your monthly billing statement. Interest on Cash
Advances (in addition to Cash Advance Fees) will be imposed at
the applicable Monthly Periodic Rate from the date of each
transaction and will continue to accrue on unpaid balances as
long as they remain unpaid. There is no time period within which
to pay to avoid periodic Interest charges on Cash Advances. The
minimum FINANCE CHARGE you will be required to pay in any
billing cycle that has Finance Charge due is $2.50.
ACCOUNT FEES: The fees and charges that may be applied to
your Account are set forth in the Summary of Terms above.
Late Payment Fee: If you do not make your Minimum Payment
on or before the Payment Due Date, we will apply a Late
Payment Charge of up to $25 ($15 in IA) if payment is more than
5 days late.
Returned Check Fee: If any check or money order in payment
of your account is returned to us unpaid for any reason, we will
apply a returned check fee of up to $25 ($15 in IA) to your
Account.
Annual Fee: Your account may be assessed an annual fee of
$25 starting 24 months after card issuance date.
Foreign Transaction Fee: We will impose a fee of one percent
(1%) on each (original and reversed) international purchase,
credit voucher, and cash disbursement transaction (including
international transactions made in U.S. dollars). This fee is a
pass-through of a fee imposed by the card association.
OUR RIGHTS AND HOW THEY AFFECT YOU
Telephone Monitoring and Recording: From time to time, we
may monitor and/or record telephone calls regarding your
Account with us to assure the quality of our service, and you
agree to any such monitoring or recording.

Communicating With You; Consent to Contact by Electronic
and Other Means: You agree that we or our servicers, agents,
contractors, successors, or assigns may contact you as provided in
this paragraph. We may contact you for any lawful reason,
including for the collection of amounts owed to us and for the
offering of products or services in compliance with our Privacy
Policy in effect from time to time. No such contact will be deemed
unsolicited. We may contact you at any address or telephone
number (including wireless cellular telephone or ported landline
telephone number) that you may provide to us from time to time.
We may use any means of communication, including, but not
limited to, postal mail, electronic mail, telephone or other
technology, to reach you. You agree that we may use automatic
dialing and announcing devices which may play recorded
messages. We may also send text messages to your telephone.
You may contact us at any time to ask that we not contact you
using any one or more methods or technologies.
Refunds: If a seller agrees to give a refund, you agree to accept
a credit on your Account instead of a cash refund.
Postdated Checks, Restricted Endorsement Checks and
Other Disputed or Qualified Payments: We can accept late,
postdated or partial payments without losing any of our rights
under this Agreement. (A postdated check is a check dated later
than the day it was actually presented for payment.) We are
under no obligation to hold a post dated check and we reserve
the right to process every item presented as if dated the same
date received by us or our check processor unless you give us
adequate notice and a reasonable opportunity to act on it. Except
where such notice and opportunity is given, you may not hold us
liable for depositing any postdated check. You agree not to send
us partial payments marked “paid in full,” “without recourse,” or
similar language. If you send such a payment, we may accept it
without losing any of our rights under this Agreement. All
notices and written communications concerning postdated
checks, restricted endorsement checks (including any check
or other payment instrument that indicates that the payment
constitutes “payment in full” of the amount owed or that is
tendered with other conditions or limitations or as full
satisfaction of a disputed amount) or any other disputed,
nonconforming or qualified payments, must be mailed or
delivered to Emblem Cardholder Services, PO BOX 89210 Sioux
Falls, SD 57109.
Credit Reports and Information: You authorize us to make any
credit, employment, or other investigative inquiries we deem
appropriate to extend you credit or to renew, review or collect
amounts owed to us on your Account. We also may obtain followup credit reports on you for any lawful purpose as long as you
have an outstanding balance.
Information Sharing: You acknowledge and agree that we may
share information about you with others in accordance with our
Privacy Policy in effect from time to time. We will provide a copy
of our current Privacy Policy to you from time to time.
Notice of Inaccurate Information: If you believe that we have
information about you that is inaccurate or that we have reported
or may report to a credit reporting agency information about you
that is inaccurate, please notify us of the specific information that
you believe is inaccurate by writing to us at Emblem Cardholder
Services, PO BOX 89210 Sioux Falls, SD 57109.
Collection and Default: Unless prohibited by applicable law,
your Account is considered to be in default if:

M-123534

(1) You do not make at least the Minimum Payment on or
before the Payment Due Date;
(2) You try to exceed, or do exceed, your Credit Limit;
(3) You file bankruptcy or insolvency proceedings;
(4) You become subject to attachment or garnishment
proceedings;
(5) You give us any false information or signature;
(6) You die; or
(7) You fail to comply with any portion of this Agreement.
Subject to any notice of default and right to cure or other
restriction of applicable law, if you are in default, we may
declare the entire balance due immediately.
Change of Terms: Your Account is a continuing offer to extend
further credit to you that we may end at any time. Except as
otherwise provided in this Agreement and subject to applicable
law, we may, at any time beginning twelve (12) months
after Account opening, add, change or remove any of the
terms and conditions of this Agreement. A change may be
based upon factors including, but not limited to, anti- fraud
policies and procedures, your record of making timely
payments and staying within your established Credit Limit,
your credit score and information contained in your credit
report. We will mail written notice of a change to you when
and in the manner required by applicable law. Subject to the
limitations of applicable law, as of the stated effective date,
the changed or new terms will apply to new Purchases, Cash
Advances and other transactions.
Delay in Enforcement: We can delay enforcing our rights
under this Agreement without losing them.
OTHER PROVISIONS
Transfer and Termination of Your Account: You may not
transfer your Account to any other person. We may assign your
Account to any other person at any time. We may terminate
your Account if you are or become a non-U.S. resident or a
resident of Illinois, Indiana, Massachusetts, Maine, North
Carolina, Rhode Island, West Virginia or any U.S. territory.
Either you or we may terminate or suspend your credit
privileges at any time. Upon our request, you agree to destroy
your Card immediately.
Account Cancellation and Fee Refund: You may ask that we
close your Account at any time by notifying us in writing. Except
as provided below, you will remain responsible for all
transactions, periodic Interest charges, and other fees and
charges, charged to your Account until paid in full. We will credit
fees to your Account ONLY IF (i) you close your Account
within 30 days of Account opening and (ii) you make no new
Purchase or Cash Advance transactions on your Account after
opening. After this 30-day period, all fees are no longer
avoidable or refundable.
Foreign Currency Conversion: If you use your Card for
transactions in a currency other than U.S. dollars, the
transactions will be converted to U.S. dollars under the
appropriate current card association regulations. The
exc h a n ge or currency conversion rate between the transaction
currency and the billing currency will be either (i) a rate
selected by the card association from the range of rates
available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate the
card association itself receives, or (ii) the government-

mandated rate in effect for the applicable central processing
date. The exchange or currency conversion rate on the
transaction processing date may differ from the rate in effect at
the time of the transaction or the date the transaction is posted to
your Account. You agree to accept the converted amount in U.S.
dollars.
Honoring Your Card: We are not accountable if a merchant,
ATM or other institution does not honor your Card, or if it
malfunctions there. Although you may have credit available, we
are not liable if credit is not authorized or approved, whether
because of operational difficulties, mistakes or otherwise.
Transactions above a certain dollar amount may require special
authorization by us before the transaction can be approved. In
addition, we may limit the number and amount of transactions
approved in one day for security reasons, without any liability to
you.
Notices; Change of Address, Employment or Telephone: We
will send all written notices and statements to your address as it
appears on our records. To avoid delays and missed payments
that could affect your credit standing, you agree to advise us
promptly if you change your mailing address, place of
employment, telephone number or other contact information,
including, but not limited to, porting a landline telephone number
to a cellular phone. You represent and agree that for purposes of
imposing fees and charges, the mailing address on your
statement is your state of residence.
Severability: In the event that any provision of this Agreement is
determined to be invalid or unenforceable for any reason, the
validity or enforceability of any other provision of this Agreement
will not be affected, and in lieu of such invalid or unenforceable
provision there will be added automatically, as part of this
Agreement, a provision as similar in terms as may be valid and
enforceable, if possible.
No Waiver By Us: We reserve the right, at any time and in our
sole discretion, not to impose part or all of any fee or other
amount imposed pursuant to this Agreement or not to exercise
any of our other rights under this Agreement. If we exercise the
foregoing right, we will not waive our right to impose any such fee
or other amount or our right to exercise the foregoing right or any
other rights, in the future.
Entire Agreement; Interpretation: This Agreement constitutes
the final expression of the credit agreement between you and us
relating to your Account. The headings used in this Agreement
are for the convenience of reference only and are not intended to
define or describe the entire scope or intent of any portion of this
Agreement.
Governing Law: This Agreement is controlled and governed
the laws of the State of Missouri, including Missouri Revised
Statutes (Chapter 408 Legal Tender and Interest) Section
408.145, except to the extent that such laws are inconsistent
with controlling federal laws.

ARBITRATION PROVISION
ARBITRATE CLAIMS)

(AGREEMENT TO

Unless you are a “covered borrower,” as defined under the Military
Lending Act, 10 U.S.C. §987, as amended, and except as
otherwise stated below, if you or we so choose, any Claim (as
defined below) will be resolved by binding arbitration pursuant to
(a) this Arbitration Provision and (b) the code of procedure of the

national arbitration organization to which the Claim is referred (as
in effect when the Claim is filed). Claims will be referred to either
Judicial Arbitration and Mediation Services (“JAMS”) or the
American Arbitration Association (“AAA”), as selected by the
party electing to use arbitration. Streamlined arbitration
procedures will be used if available. If a selection by us of one of
these organizations is unacceptable to you, you have the right,
within 30 days after you receive notice of our election, to select the
other organization listed to serve as arbitration administrator. For
purposes of this Arbitration Provision, “Claim” means any claim,
dispute or controversy (whether in contract, tort, or otherwise)
past, present or future, (collectively, "Claims") as further
described below. (If for any reason a selected organization
cannot, will not or ceases to serve as an arbitration administrator,
you or we may substitute another wi d e l y recognized arbitration
organization that uses a similar code of procedure and is mutually
acceptable to the parties.) If you receive a Card and later default
on your Account, we agree not to bring legal action or seek
arbitration to collect any remaining Program Balance that is
transferred to your EMBLEM® MasterCard® Account.
RIGHT TO REJECT ARBITRATION: You may reject this
Arbitration Provision. If you do so, neither you nor we will
have the right to engage in arbitration.
Rejecting this
Arbitration Provision will have no affect on any of the other
provisions in this Bank Credit Card Agreement. To reject this
Arbitration Provision, you must send us your written rejection
within 60 days after we open your Account, or 60 days after any
change in terms that affects this Arbitration Provision, to Emblem
Cardholder Services, PO BOX 89210 Sioux Falls, SD 57109.
In your letter, you must give us the following information: Name,
Address and Account number. The right to reject granted here
applies solely to this Arbitration Provision, and not to any other
provision of this Bank Credit Card Agreement, or to any other
agreement with us. In the event of a dispute over whether you
have provided a timely rejection notice, you must provide proof of
delivery. Neither party may elect to arbitrate an individual Claim
brought in small claims court (or your state’s equivalent court, if
any). However, if a Claim that is brought in small claims court is
transferred or appealed to a different court, either party may elect
arbitration.
SIGNIFICANCE OF ARBITRATION; LIMITATIONS AND
RESTRICTIONS. IF YOU OR WE CHOOSE TO RESOLVE A
CLAIM BY BINDING ARBITRATION, NEITHER YOU NOR WE
WILL HAVE THE RIGHT TO (i) HAVE A COURT OR JURY
DECIDE THE CLAIM BEING ARBITRATED (ii) ENGAGE IN
PRE-ARBITRATION DISCOVERY (THAT IS, THE RIGHT TO
OBTAIN INFORMATION FROM THE OTHER PARTY) TO THE
SAME EXTENT THAT YOU OR WE COULD IN COURT,
(iii) PARTICIPATE AS A REPRESENTATIVE OR MEMBER OF
ANY CLASS OF CLAIMANTS IN A CLASS ACTION, IN COURT
OR IN ARBITRATION, RELATING TO ANY CLAIM SUBJECT
TO ARBITRATION OR (iv) JOIN OR CONSOLIDATE CLAIMS
OTHER THAN YOUR OWN OR OUR OWN. OTHER RIGHTS
AVAILABLE IN COURT MAY NOT BE AVAILABLE IN
ARBITRATION. Except as set forth below, the arbitrator’s
decision will be final and binding. Only a court may decide the
validity of items (iii) and (iv) above. If a court holds that items (iii)
or (iv) are limited, invalid or unenforceable, then this entire
Arbitration Provision will be null and void. You or we can appeal

any such holding. If a court holds that any other part(s) of this
Arbitration Provision (other than items (iii) and (iv)) are invalid, then
the remaining parts of this Arbitration Provision will remain in force.
An arbitrator will decide all other issues pertaining to arbitrability,
validity, interpretation and enforceability of this Arbitration
Provision. The decision of an arbitrator is as enforceable as any
court order and may be subject to very limited review by a court. An
arbitrator may decide a Claim upon the submission of documents
alone. A party may request a telephonic hearing if permitted by
applicable rules. The exchange of non-privileged information
relevant to the Claim, between the parties, is permitted and
encouraged. Either party may submit relevant information,
documents or exhibits to the arbitrator for consideration in deciding
a Claim.
BROAD MEANING OF “CLAIMS.” The term "Claims" in this
Arbitration Provision is to be given the broadest possible meaning
and includes (by way of example and without limitation) Claims
arising from or relating to (i) the application for or issuance of your
Account, (ii) use, terms, change in terms or addition of terms,
closing or collection of your Account or this Bank Credit Card
Agreement, (iii) advertisements, promotions or oral or written
statements related to your Account, including any Claims
regarding information obtained by us from, or reported by us to,
credit reporting agencies or others, (iv) the goods or insurance or
other services purchased under your Account, (v)
Claims
between you and our parent corporations, wholly or majority
owned subsidiaries, affiliates, predecessors, successors, assigns,
agents, independent contractors, employees, officers, directors or
representatives arising from your Account or this Bank Credit
Card Agreement and (vi) Claims regarding the validity,
enforceability or scope of this Arbitration Provision or this Bank
Credit Card Agreement.
ARBITRATION PROCEDURE AND COSTS. For a copy of
relevant codes of procedure, to file a Claim or for other
information about JAMS and AAA, write them, visit their web site
or call them at: (i) for JAMS, 1920 Main Street, Suite 300, Irvine,
CA 92614 or info@jamsadr.com, http://www.jamsadr.com, 1-800352-5267; or (ii) for AAA, 1633 Broadway, 10th Floor, New York,
NY 10019 or websitemail@adr.org, http://www.adr.org, 1-800778-7879. If either party fails to submit to arbitration following a
proper demand to do so, that party will bear the costs and
expenses, including reasonable attorneys’ fees, incurred by the
party compelling arbitration. Any physical arbitration hearing that
you attend will be held in the federal judicial district where you live
at the time the Claim is filed. The party initiating the arbitration
will pay the filing fee. You may seek a waiver of the initial filing
fee or any other fees incurred in arbitration. If you seek, but do
not qualify for, a waiver, we will consider any written request by
you for us to pay or reimburse you for all or part of such fees.
Each party will pay for its respective attorneys’, experts’ and
witness fees, regardless of which party prevails in the arbitration.
A party may recover any or all expenses from another party if the
arbitrator, applying applicable law, so determines. Allocation of
fees and costs relating to appeals in arbitration will be handled in
the same manner. For an explanation and schedule of the fees
that apply to an arbitration proceeding with JAMS, please visit
http://www.jamsadr.com/rules-streamlined-arbitration; for AAA,
visit http://www.adr.org/si.asp?id=5391. The appropriate fee

M-123534

schedule in effect from time to time is hereby incorporated by
reference into this Arbitration Provision. The cost of arbitration
may be higher or lower than the cost of bringing your Claim in
court, depending upon the nature of your Claim and how
the arbitration proceeds. Having more than one Claim and
holding face-to-face hearings can increase the cost of
arbitration. Again, neither you nor we will be permitted to
arbitrate claims on a class- wide (that is, on other than an
individual) basis. An arbitration proceeding can decide only
your or our Claims. You cannot join other parties (or
consolidate Claims) except with respect to persons who use
your Account.
GOVERNING LAW FOR ARBITRATION. This Arbitration
Provision is made pursuant to a transaction involving
interstate commerce, and will be governed by the Federal
Arbitration Act ("FAA"), 9 U.S.C. §§ 1 et seq., as amended,
notwithstanding any other governing law provision in this Bank
Credit Card Agreement. The arbitrator will apply applicable
substantive law consistent with the FAA and applicable
statutes of limitations and will honor claims of privilege
recognized at law. Judgment upon any arbitration award may
be entered and enforced, including without limitation by
garnishment, attachment, foreclosure or other post-judgment
remedies, in any court having jurisdiction. The arbitrator’s
decision will be final and binding, except for any right of appeal
provided by the FAA, in which case any party can appeal the
award to a three-arbitrator panel administered by the selected
arbitration administrator. The panel will reconsider de novo
(that is, without deference to the ruling of the original
arbitration) any aspect of the initial award requested by the
appealing party.
CONTINUED EFFECT OF ARBITRATION PROVISION. This
Arbitration Provision will continue to govern any Claims that
may arise without regard to any termination or cancellation of
your Account. If any portion of this Arbitration Provision (other
than the provisions prohibiting class-wide arbitration, joinder or
consolidation) is deemed invalid or unenforceable under the
FAA, it will not invalidate the remaining portions of this
Arbitration Provision. If a conflict or inconsistency arises
between the code of procedures of the selected arbitration
administrator and this Arbitration Provision, this Arbitration
Provision will control.

STATE NOTICES
CA RESIDENTS: A married applicant may apply for a
separate account. If this is a joint account, after credit approval,
each applicant shall have the right to use this account to the
extent of any credit limit set by the creditor, and each applicant
may be liable for all amounts of credit extended under this
account to any joint applicant. Interest is compounded on
unpaid finance charges on Purchases and on unpaid finance
charges on Cash Advances.
NJ RESIDENTS: Because certain provisions of this
Agreement are subject to applicable law, they may be void,
unenforceable or inapplicable in some jurisdictions. None of
these provisions, however, is void, unenforceable or
inapplicable in New Jersey.
OH RESIDENTS: The Ohio laws against discrimination require
that all creditors make credit equally available to all credit
worthy customers, and that credit reporting agencies maintain

separate histories on each individual upon request. The Ohio civil
rights commission administers compliance with this law.
NY RESIDENTS: New York residents may contact the New
York state banking department to obtain comparative listing of
credit card rates, fees, and grace periods. Call 1-800-518-8866.
WI RESIDENTS: We will not charge you attorneys’ fees, court
costs, or other collection costs incurred as a result of your default.
MARRIED WI RESIDENTS: No provisions of any marital
property agreement, unilateral statement under section 766.59 or
court decree under section 766.70 will adversely affect the interest
of the creditor unless the creditor, prior to the time credit is
granted, is furnished a copy of the agreement, statement, or
decree or has actual knowledge of the adverse position when the
obligation to the creditor is incurred. We are required to ask you to
provide the name and address of your spouse.
DE and MD RESIDENTS: Finance charges will be imposed in
amounts or at rates not in excess of those permitted by law on the
outstanding balances from month to month.
MD RESIDENTS: You have the right under Section 12-510 of the
Commercial Law Code to receive an answer to a written inquiry
concerning the status of your account.

NOTICE TO THE BUYER
1. DO NOT SIGN THIS CREDIT AGREEMENT
BEFORE YOU READ IT OR IF IT CONTAINS ANY
BLANK SPACES.
2. YOU ARE ENTITLED TO A COMPLETELY
FILLED IN COPY OF THIS CREDIT AGREEMENT.
3. YOU MAY AT ANY TIME PAY MORE THAN
THE MINIMUM PAYMENT OR YOUR ENTIRE
BALANCE IN FULL WITHOUT INCURRING ANY
ADDITIONAL CHARGE FOR PREPAYMENT.
NY RESIDENTS: RETAIL INSTALMENT CREDIT
AGREEMENT
CARDHOLDER: Your signature (including any electronic or
digital signature) on any Application or on any sales slip or other
evidence of indebtedness on your Account represents your
signature on this Agreement.
BANK: /s/ The Bank of Missouri/St. Robert MO
Date: September 2017
BILLING RIGHTS NOTICE
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Emblem Cardholder Services
PO BOX 89210
Sioux Falls, SD 57109
In your letter, give us the following information:
•
Account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report
you as delinquent on that amount.
•
The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
•
If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and
the date payment is due. We may then report you as delinquent
if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was b as e d on an
advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Emblem Cardholder

Services PO BOX 89210
Sioux Falls, SD 57109
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision

M-123534

Please take a moment to review the following important information about your Emblem® account.
What you need to know: We are pleased to inform you that Mid America Bank & Trust company, has been
acquired by The Bank of Missouri. As a result, The Bank of Missouri will be the issuing bank for your Emblem®
Mastercard effective March 26, 2018. You can expect to see the Bank of Missouri name and logo on the documents
associated with your account from the effective date going forward. Please note that the servicer for your account,
Emblem® Card Services, will not change when the change to the issuing bank becomes effective. Also, please note
the following amendment to your cardholder agreement:
“We,” “us,” “our,” means The Bank of Missouri, St. Robert, Missouri, and our agents, authorized
representatives, successors, and assignees or other holders of this Agreement or your Account.
The Bank of Missouri privacy policy that applies to your Emblem® MasterCard is included with this notice.
What you need to do: You will not have to take any action in response to this notice. The financial terms and conditions associated with your account, including interest rate and fees, have not changed. Your account number and
pin, if applicable, will also stay the same and you may continue to use your existing card as usual. Other practical
matters such as your payment due date, and the customer service number and payment address associated with
your account, will also stay the same.
Should you have any questions, please contact us at 1-877-345-0151 or visit us at www.myccpay.com to make
payment.

M-125063

Total Card BuckSlip_M125063 165028.indd 1

3/12/18 10:19 AM

